US 20-787 Reply Service List
Attorneys for Respondents
Walter Scott Snyder
Greg A. Rubstello
James Edward Haney
Ogden Murphy Wallace, PLLC
2100 Westlake Center Tower
1601 Fifth Avenue
Seattle, WA 98101
(206) 612-0271
ssnyder@omwlaw.com
grubstello@omwlaw.com
jhaney@omwlaw.com
Attorneys for City of Bainbridge Island
Peter Benjamin Gonick
Phyllis J. Barney
Dionne Padilla-Huddleston
PO Box 40100
Olympia, WA 98504
(360) 753-6245
peterg@atg.wa.gov
phyllisb@atg.wa.gov
dionnep@atg.wa.gov
Attorneys for Respondent Dep’t of Ecology (waived response)
Lisa M. Petersen
Assistant Attorney General
Licensing & Administrative Law
800 Fifth Avenue, Suite 2000
Seattle WA 98104
(360) 753-6200
lisa.petersen@atg.wa.gov
Attorney for Growth Board, ELUHO (waived response)
Amici will be sent courtesy copies electronically. lawrence.ebner@atlanticlegal.org and
tsandefur@goldwaterinstitute.org

